Semiannual Report to Congress
April 1, 2012 – September 30, 2012



                                November 2012




       Federal Election Commission - Office of Inspector General
              999 E Street, N.W. Suite 940, Washington, D.C. 20463
April 1, 2012 - September 30, 2012




                                 FEDERAL ELECTION COMMISSION
                                 WASHINGTON, D.C. 20463




           OFFICE OF THE CHAIR




                                                               i
                                                                   Office of Inspector General Semiannual Report to Congress




                                    MANAGEMENT REPORT ON
                               INSPECTOR GENERAL ISSUED REPORTS
                                     WITH QUESTIONED COSTS
                       FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2012



                                                       Number of        Questioned     Unsupported
                                                        Reports           Costs           Costs

     A. Reports for which no management decision
        has been made by commencement of the
        reporting period                                   0                 0               [0]


     B. Reports issued during the reporting period         0                 0               [0]


        Subtotals (A + B)                                  0                 0               [0]


     C. Reports for which a management decision
        was made during the reporting period               0                 0               [0]


        (i) Dollar value of disallowed costs               0                 0               [0]


        (ii) Dollar value of costs not disallowed          0                 0               [0]


     D. Reports for which no management decision has
        been made by the end of the reporting period       0                 0               [0]


     E. Reports for which no management decision
        was made within six months of issuance             0                 0              [0]




ii
April 1, 2012 - September 30, 2012




                                                     MANAGEMENT REPORT ON
                                             INSPECTOR GENERAL ISSUED REPORTS WITH
                                          RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
                                        FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2012



                                                                            Number of        Funds to be Put
                                                                             Reports         To Better Use

                      A. Reports for which no management decision
                         has been made by the commencement
                         of the reporting period                                0                 0


                      B. Reports issued during the reporting period              0                0


                      C. Reports for which a management decision
                         was made during the reporting period                    0                0


                         (i) Dollar value of recommendations that were
                             agreed to by management                             0                0

                          - Based on proposed management action                  0                0

                          - Based on proposed legislative action                 0                 0


                         (ii) Dollar value of recommendations that were
                              not agreed to by management                        0                0


                      D. Reports for which no management decision
                         has been made by the end of the reporting period        0                0


                      E. Reports for which no management decision
                         was made within six months of issuance                  0                0




                                                                                                               iii
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




iv
April 1, 2012 - September 30, 2012




                                      FEDERAL ELECTION COMMISSION
                                      WASHINGTON, D.C. 20463
                                      Office of Inspector General



                                            A Message from the Inspector General


                    In the beginning of FY 2012, the OIG made a decision to place an emphasis on following
                    up on previous recommendations made to management in audit reports and inspections.
                    To do so we made revisions to our Audit Follow-up Process, to include conducting
                    quarterly follow-up meetings with management regarding outstanding OIG
                    recommendations, and providing a semiannual report to the Commission detailing the
                    audit follow-up work conducted by the OIG and the status of outstanding
                    recommendations.


                    The OIG released the Review of Outstanding Audit Recommendations (OIG-12-04) report
                    in June 2012. The review conducted by the OIG included a detailed review of
                    outstanding audit recommendations for four (4) OIG audits to determine whether FEC
                    management had implemented outstanding audit recommendations. The review also
                    assessed the status of outstanding recommendations from several other inspections and
                    reviews of agency programs. While we found management had made some progress,
                    there are still a great number of recommendations that have not been implemented. The
                    OIG also provided suggestions to management on how to improve the FEC’s audit
                    follow-up process.


                    Our plan is to continue placing an emphasis on monitoring open recommendations and
                    we have included this task in our annual work plan for fiscal year 2013. We feel this will
                    aid management in placing the appropriate focus on continuing to resolve outstanding
                    recommendations.


                    In May 2012, OIG implemented a new formal risk assessment process to aid in
                    developing the annual OIG work plans. The purpose of the risk assessment is to better
                    align OIG resources to areas that will provide the most value to the FEC. A risk




                                                                                                                 v
                                                           Office of Inspector General Semiannual Report to Congress




     assessment is "a process to identify, assess, respond to, and report on opportunities and
     threats that affect the achievement of objectives.” The new risk assessment process
     entails a comprehensive review of all the risk that could impact the FEC and was
     modeled after the COSO (The Committee of Sponsoring Organizations of the Treadway
     Commission) framework. The risk assessment was performed in three (3) phases, which
     are listed below:


                    Phase 1 – Identifying the Audit Universe
                    Phase 2 – Performing the Risk Assessment
                    Phase 3 – Developing the Annual Audit Plan


     I feel the OIG has made some major adjustments in how we conduct our work and this
     will enable us to operate in a more efficient and effective manner. I would like to
     congratulate the staff for making the necessary adjustments to ensure that the OIG and its
     work products continue to improve and provide value to the Federal Election
     Commission.




     Lynne A. McFarland
     Inspector General
     Federal Election Commission

     October 23, 2012




                                                  2




vi
April 1, 2012 - September 30, 2012




                                                         Table of Contents



      Executive Summary	                                                                 1
      The Federal Election Commission 	                                                  3
      Office of Inspector General	                                                       4
      OIG Audit Activity	                                                                5	
      OIG Audit Follow-up Activity	                                                      8
      OIG Inspections and Special Projects	                                              9
      OIG Hotline Information	                                                          11
      OIG Investigations	                                                               13
      Additional OIG Activity	                                                          14
      Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity	   16
      OIG Contacts	                                                                     17
      List of Training, Meetings and Conferences Attended by OIG Staff	                 18
      Reporting Requirements 	                                                          21
      Table I –	 Questioned Cost	                                                       22
      Table II – 	Funds Put To Better Use	                                              23
      Table III – Summary Of Audit And Inspection Reports With	                         24
                  Corrective Actions Outstanding For More Than Six Months
      Appendix A: OIG Fiscal Year 2013 Work Plan	                                       25




                                                                                              vii
                     Office of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank
April 1, 2012 - September 30, 2012




                                                              Executive Summary



 The Inspector General Act of 1978, as amended,           detailed review of outstanding audit recommenda-
 states that the Inspector General is responsible         tions for four (4) OIG audits to determine whether
 for conducting audits, inspections, investigations,      FEC management had implemented outstanding au-
 and recommending policies and procedures that            dit recommendations. The review also assessed the
 promote economy, efficiency, and effectiveness of        status of outstanding recommendations from several
 agency resources and programs, and to prevent            other inspections and reviews of agency programs.
 fraud, waste, abuse, and mismanagement. The IG           For detailed information pertaining to the Review of
 Act also requires the Inspector General to keep          Outstanding Audit Recommendations, see the sec-
 the Commission and Congress fully and currently          tion entitled OIG Audit Follow-up Activity (starting
 informed about problems and deficiencies in the          on page 8).
 Commission’s operations and the need for corrective
 action.                                                  The OIG completed and released in August
                                                          2012 the 2011 Inspection of the Federal Election
 The executive summary highlights the most signifi-
                                                          Commission’s (FEC) Contract Security Guard
 cant activities of the Federal Election Commission
                                                          Program (OIG-11-03) report. The inspection resulted
 (FEC) Office of Inspector General (OIG). Additional
                                                          in one (1) finding and recommendation, and nine (9)
 details pertaining to each OIG activity (i.e. audits,
 hotline, and investigations) can be found in subse-      observations and suggestions to improve the secu-
 quent sections of this report. The diligent work, out-   rity guard operations. The recommendation and one
 standing efforts, and many contributions of our entire   of the suggestions were directed to both FEC man-
 OIG staff make the major accomplishments of the          agement and the Federal Protective Service (FPS),
 OIG possible.                                            four (4) suggestions were directed primarily to FEC
                                                          management, and four (4) suggestions were directed
 In September 2012, the OIG completed a Quality           primarily to the FPS.
 Assessment Review of the FEC Audit Division (OIG-
 12-01). The primary objective of the audit was to        A special project report entitled New Employee
 ensure that the FEC Audit Division’s quality control     Orientation (NEO) Survey (OIG-12-08) was also
 system is suitably designed and consistently com-        completed and released during this reporting period.
 plied with to the extent necessary to reasonably en-     The purpose of the survey was to evaluate the ef-
 sure compliance with professional audit standards
                                                          fectiveness of the FEC's NEO program and suggest
 (best practices) and policies. The audit resulted in
                                                          improvements to enhance the program. The 43 sur-
 five (5) findings and eleven (11) recommendations
                                                          vey responses received by the OIG from employees
 to improve the quality control system of the FEC
                                                          hired approximately within the last three years were
 Audit Division. For detailed information pertaining
 to the Quality Assessment Review of the FEC Audit        generally positive, nevertheless there is opportunity
 Division, see the section entitled OIG Audit Activity    for improvement and the OIG made several sugges-
 (starting on page 5).                                    tions to the FEC to improve the NEO program.

 The OIG released the Review of Outstanding Audit         For detailed information pertaining to the 2011 in-
 Recommendations (OIG-12-04) report in June               spection of the security guard program and the sur-
 2012. The review conducted by the OIG included a         vey of the new employee orientation, see the section


                                                                                                              1
                                                             Office of Inspector General Semiannual Report to Congress




entitled OIG Inspections and Special Projects            The OIG procured contract services to conduct an
(starting on page 9).                                    inspection of the FEC’s Disaster Recovery Plan and
                                                         Continuity of Operations Plans. On September 26,
In addition to the aforementioned completed proj-        2012, the contract to conduct the inspection was
ects, the Audit of the FEC’s Human Resources (HR)        awarded to Brown & Company. The planning phase
Office commenced during this reporting period. The       of the inspection has started, and the preliminary
HR Office is a critical component of the agency and      meetings with the OIG and management are sched-
is responsible for several important functions, in-      uled for early October 2012 (see page 9).
cluding recruitment and retention of qualified FEC
staff; employee-employer relations; administration       The OIG recently began an inspection of the FEC’s
of employee benefits; maintenance and process-           Office of Equal Opportunity Employment (OEEO).
ing of personnel records; and training, among other      The initial records have been obtained from the
responsibilities. The primary objectives of the audit    OEEO and are under review by the OIG in order to
are to assess the HR customer service level and the      plan the inspection. The OEEO inspection is expect-
                                                         ed to be completed and the report published during
efficient and effective use of automated processes
                                                         the next reporting period (see page 10).
for human resource functions. As part of the cus-
tomer service assessment, the OIG will conduct an
                                                         Two (2) new hotline complaints were opened dur-
agency-wide survey of FEC staff to seek feedback         ing this reporting period; one (1) of the two (2) was
on their satisfaction level of service provided by the   closed and the matter re-opened as an investigative
FEC HR Office.                                           file. The OIG has three (3) open hotline complaints
                                                         as of the close of this reporting period, including two
The OIG continued work on the Audit of the FEC’s         (2) that were opened prior to the beginning of this
Fiscal Year 2012 Financial Statements. The OIG ex-       reporting period. For this reporting period, the OIG
ercised another option year earlier in the year with     received four hundred and nineteen (419) hotline
Leon Snead & Co. (LSC) to conduct the FEC’s 2012         inquiries; the vast majority of these inquiries were
annual financial statement audit. The entrance con-      related to one matter, which is outside the jurisdic-
ference with FEC management, LSC and the OIG             tion of the OIG. Two (2) of the hotline inquiries were
was held on May 8, 2012. As part of the OIG’s moni-      referred or redirected to other FEC offices, and one
toring of the audit, the OIG approved LSC’s planning     (1) was referred or redirected to another agency.
documents and audit program at the beginning of          One (1) concerned a follow-up issue to a previous
the audit. During the audit, biweekly status meet-       OIG audit. No further action was taken against the
ings were held with the auditors, FEC management         remaining four hundred and fourteen (415) hotline
and the OIG to discuss audit issues and provide an       inquiries (see page 11). In addition, one (1) investi-
update of the audit process. LSC completed their         gation was opened during this semiannual reporting
interim testing phase in September 2012 and identi-      period and remains open (see page 13).
fied nine (9) preliminary audit issues related to in-
                                                         Finally, in May 2012, the OIG implemented a formal
formation technology security. These 9 issues were
                                                         risk assessment process to aid in developing the
reported to management as notice of findings and         OIG’s annual work plans. The purpose of the risk
recommendations, with a request for management           assessment is to better align OIG resources to areas
to respond to the accuracy of the issues. Final year-    that will provide the most value to the FEC based
end audit testing is anticipated to begin October 9,     on risk. A risk assessment is "a process to identify,
2012.                                                    assess, respond to, and report on opportunities and
                                                         threats that affect the achievement of objectives.”
For detailed information pertaining to the Audit of      The new risk assessment process enabled the OIG
the Human Resources Office (see page 6); and             to finalize the FY 2013 work plan detailing the audit,
the Audit of the FEC’s Fiscal Year 2012 Financial        inspection and investigative areas the OIG will focus
Statements (see page 6).                                 resources on during the year (see page 25).


2
April 1, 2012 - September 30, 2012




                              The federal election commission



                                          In 1975, Congress created the Federal Election
                                          Commission to administer and enforce the Federal
                                          Election Campaign Act (FECA). The duties of the
                                          FEC, an independent regulatory agency, are to dis-
                                          close campaign finance information; enforce the pro-
                                          visions of the law; and oversee the public funding of
                                          Presidential elections.

                                          The Commission consists of six members who are
                                          appointed by the President and confirmed by the
                                          Senate. Each member serves a six-year term, and
                                          two seats are subject to appointment every two
                                          years. By law, no more than three Commissioners
                                          can be members of the same political party,
                                          and at least four votes are required for any offi-
                                          cial Commission action. The Chairmanship of the
                                          Commission rotates among the members each year,
                                          with no member serving as Chairman more than
                                          once during his or her term. Currently the FEC has
                                          a full complement of Commissioners – Caroline
                                          C. Hunter, Chair; Ellen L. Weintraub, Vice Chair;
                                          and Commissioners Cynthia L. Bauerly; Donald
                                          F. McGahn II; Matthew S. Petersen; and Steven T.
                                          Walther.




                                                                                              3
                Office of Inspector General Semiannual Report to Congress




    Office of Inspector General.



            The Inspector General Act of 1978 (P.L. 100-504),
            as amended, states that the Inspector General is re-
            sponsible for: 1) conducting and supervising audits
            and investigations relating to the Federal Election
            Commission’s programs and operations; 2) de-
            tecting and preventing fraud, waste, and abuse of
            agency programs and operations while providing
            leadership and coordination; 3) recommending poli-
            cies designed to promote economy, efficiency, and
            effectiveness of the establishment; and 4) keeping
            the Commission and Congress fully and currently
            informed about problems and deficiencies in FEC
            agency programs and operations, and the need for
            corrective action.




4
April 1, 2012 - September 30, 2012




                                                                 OIG Audit Activity



 Quality Assessment Review of the FEC Audit                 auditing standards (best practices) and policies; au-
 Division                                                   dit conclusions are properly supported with sufficient
                                                            and competent evidence; supervisory review of au-
 Assignment Number: 	 OIG-12-01                             dits is timely throughout the conduct of audits; and
 Status:	 Released September 2012                           other requirements are met that contribute to quality
                                                            audits. In addition, to ensure conformity with audit-
 http://www.fec.gov/fecig/documents/Final-QualityAssessme   ing best practices related to continuing professional
 ntAuditoftheFECAuditDivision-OIG-12-01.pdf                 education (CPE), we performed testing to determine
                                                            if the audit staff regularly obtains adequate training
 The OIG completed a quality control assessment             to ensure audits are conducted in accordance with
 audit of the FEC Audit Division during this report-
                                                            professional auditing standards (best practices).
 ing period. The FEC Audit Division (AD) is respon-
 sible for conducting audits of political committees,
                                                            Based on our assessment of the Audit Division’s
 and presidential campaigns and convention commit-
                                                            quality control policies and procedures, the OIG con-
 tees that accept public funds. In addition, the AD is
                                                            cluded the AD’s system of quality control needs to be
 responsible for evaluating the presidential primary
                                                            enhanced to provide reasonable assurance of per-
 candidates’ applications for matching funds and de-
                                                            forming and reporting in conformity with applicable
 termining the amount of contributions that may be
                                                            government auditing best practices. Although AD’s
 matched with federal funds.
                                                            quality control system needs to be improved and
 The primary objective of the OIG audit was to en-          formally documented, the OIG found no indications
 sure that the FEC AD’s quality control system is suit-     that the audit testing actually performed by the AD
 ably designed and consistently complied with, to the       was insufficient to support the findings and conclu-
 extent necessary, to reasonably ensure compliance          sions included in the audit reports sampled. In fact,
 with professional audit standards (best practices)         the OIG concluded the AD has a very vigorous audit
 and policies. This audit was intended to model a           planning (pre-audit) process that enables testing to
 peer review, a review commonly performed on both           concentrate on the most significant (material) and
 federal and non-federal audit departments. When            high-risk audit areas.
 assessing AD’s system of quality control, we consid-
 ered best practices based on applicable standards          Further, the Audit Division needs to enhance and for-
 included in the Generally Accepted Government              malize its existing quality control process to ensure
 Auditing Standards (GAGAS) and Generally                   adequate evidence is consistently maintained to sup-
 Accepted Auditing Standards (GAAS).                        port audit work performed, and that workpaper re-
                                                            view procedures by someone other than the person
 During our audit, we interviewed AD auditors to            who performed the work is properly documented.
 obtain an understanding of the nature of the AD or-        This documentation ensures that audits consistently
 ganization and the audit process used to conduct           comply with professional audit standards and inter-
 FEC audits. We also selected a sample of audits            nal policies and procedures. The OIG concluded the
 completed during the established audit period and          quality of the AD’s audits is acceptable and generally
 examined the related audit workpapers and reports          consistent with professional auditing standards. OIG
 to ensure: auditors consistently adhere to applicable      noted in the audit report that the Audit Division is


                                                                                                                 5
                                                            Office of Inspector General Semiannual Report to Congress




working on enhancing and formalizing a quality con-     suggestions. The OIG launched the survey agency-
trol framework which will be applied to all phases of   wide on September 14, 2012 and the results of the
the audit process.                                      survey will be shared with OHR and also utilized to
                                                        help the OIG determine which areas to concentrate
The audit resulted in five (5) findings and eleven      audit testing. The HR audit is scheduled to be com-
(11) recommendations to improve the quality con-        pleted during the next reporting period.
trol process of the FEC Audit Division. Management
agreed with five (5) recommendations, partially
agreed with three (3) and disagreed with three (3)
recommendations.
                                                        Audit of the FEC’s Fiscal Year 2012 Financial
                                                        Statements
                                                        Assignment Number: 	 OIG-12-03
Audit of the Federal Election Commission’s              Status:	 In Progress
Office of Human Resources
Assignment Number:	 OIG-12-05                           The Office of Inspector General (OIG) exercised an-
                                                        other option year with Leon Snead & Co. (LSC) to
Status:	 In Progress                                    conduct the Federal Election Commission’s (FEC)
                                                        annual financial statement audit. The entrance con-
The Audit of the FEC’s Office of Human Resources        ference was held on May 8, 2012 and audit fieldwork
(OHR) commenced during this reporting period. The       commenced on May 18, 2012. The OIG approved
OHR is a critical component of the agency and is        LSC’s planning documents and audit program for
responsible for several important functions including   the FY 2012 financial statement audit. OIG approval
recruitment and retention of qualified staff; employ-   of the planning documents and audit program con-
ee-employer relations; administration of employee       sisted of LSC briefing the OIG on any changes to
benefits; maintenance and processing of personnel       the audit plan from the prior year and a discussion
records; and training, among other responsibilities.    on any changes to the audit approach due to new
                                                        accounting and auditing requirements.
The primary objectives of the audit are to assess
the OHR customer service level and the efficient
                                                        During the audit’s review and evaluation phase, LSC
and effective use of automated processes for human
                                                        followed up with management regarding the status
resource functions. The OIG held an entrance con-
                                                        of prior year findings and recommendations. LSC’s
ference on July 5, 2012 to provide management with
                                                        review of prior year findings concluded that five (5)
an understanding of the purpose of the audit and to
                                                        of the twenty (20) prior audit recommendations were
discuss the preliminary scope for the HR audit. As
                                                        properly implemented. Further, LSC reviewed FEC’s
part of the customer service assessment, the au-
                                                        compliance with applicable laws and regulations
dit includes an agency-wide survey of FEC staff to
                                                        and the existence and effectiveness of internal con-
seek feedback on their satisfaction level of service
                                                        trols. During the audit, biweekly status meetings are
provided by the FEC HR Office. The OIG devel-
                                                        held with the auditors, OIG and FEC management
oped the OHR customer service survey which was
                                                        to discuss audit issues and provide an update of the
reviewed by OHR management for comments and
                                                        audit process.


6
April 1, 2012 - September 30, 2012




 The OIG provided assistance to LSC in gathering
 data regarding current active employees and con-
 tractors, as well as researching guidance to verify
 whether Office of Management and Budget M-09-
 32: Trusted Internet Connections is applicable to
 the FEC. In addition, the auditors met with the Chair
 and Vice-Chair of the Commission to fulfill the re-
 quirements of SAS 114: Communication with Those
 Charged with Governance. The auditors provided
 the Chair and Vice-Chair with an explanation of the
 auditors’ role and responsibilities, an update regard-
 ing the progress of the audit, and the audit issues
 identified and provided to management.

 LSC completed their interim audit testing phase in
 September 2012, and the OIG reviewed the notice
 of findings and recommendations (NFRs) prior to
 distribution to management. The review and evalua-
 tion phase, and interim testing phase, identified nine
 (9) IT security audit issues that were provided to
 management as NFRs. Final audit testing is antici-
 pated to begin October 9, 2012 and the audit com-
 pleted before November 15, 2012.




                                                          7
                                                             Office of Inspector General Semiannual Report to Congress




                                   OIG Audit Follow-up Activity



Review of Outstanding Audit                              close 23 additional recommendations and the total
Recommendations                                          cumulative outstanding recommendations is one
                                                         hundred forty three (143). See Table III for a break-
Assignment Number:	 OIG-12-04                            down of outstanding recommendations.
Status:	 Released June 2012
http://www.fec.gov/fecig/documents/
ReviewofOutstandingAuditRecommendationsJune2012_000.pdf
In the beginning of FY 2012, the OIG made revi-
sions to our Audit Follow-up Process, to include
conducting quarterly follow-up meetings with man-
agement regarding outstanding OIG recommen-
dations, and providing a semiannual report to the
Commission detailing the audit follow-up work con-
ducted by the OIG and the status of outstanding
recommendations.

The OIG released the Review of Outstanding Audit
Recommendations report in June 2012. The re-
port covered four (4) audits with outstanding audit
recommendations:

    •	 Audit Follow-up Review of the FEC’s Employee
       Transit Benefit Program;
    •	 Audit of the Commission’s Property
       Management Controls;
    •	 Follow-up Audit of Privacy and Data Protection;
       and
    •	 Follow-up Audit of Procurement and Contract
       Management.
The review also assessed the status of outstand-
ing recommendations from several other inspec-
tions and reviews of agency programs. The OIG also
provided suggestions to management on how to im-
prove the FEC’s audit follow-up process.

Based on follow-up work performed since the last
semi-annual report in March 2012, OIG was able to


8
April 1, 2012 - September 30, 2012




                                                                OIG Inspections
                                                            and Special Projects

 2011 Security Inspection                                   Inspection of the FEC’s Disaster Recovery Plan
 Assignment Number:	 OIG-11-03                              and Continuity of Operations Plan
 Status:	 Released September 2012                           Assignment Number: 	 OIG-12-06
                                                            Status: 	 In Progress
 http://www.fec.gov/fecig/documents/ContractSecuritya.pdf
                                                            The Office of Inspector General procured contract
 The inspection of the FEC’s Contract Security              services to conduct an inspection of the FEC’s
 Guard Program was completed, and the report is-            Disaster Recovery Plan (DRP) and Continuity of
 sued and made publicly available. The purpose of           Operations Plan (COOP). The OIG formed a tech-
 this inspection was two-fold. The first purpose was        nical evaluation panel (TEP) to evaluate the con-
 to review the security guard contract, policies and        tract proposals, and the panel rated the proposals
 procedures, standing orders, and guard facilities to       according to the criteria identified in the contract
 clarify responsibilities and authorities. This goal was    statement of work to select the contractor offer-
 informational and intended to provide FEC manage-          ing the best value. Based on the combined scores
 ment with an understanding of the responsibilities         of the TEP, on September 26, 2012, the contract
 and authorities of the parties to and beneficiaries of     to conduct the inspection was awarded to Brown
 the contract. The second purpose was to determine          & Company. The planning phase of the inspec-
 compliance with selected contract provisions, poli-        tion started in late September 2012, and prelimi-
 cies and procedures.                                       nary meetings with the OIG and management were
                                                            scheduled for early October 2012.
 The inspection resulted in one (1) finding and rec-
 ommendation, and nine (9) observations and sug-            The objective of the inspection will be to determine if
 gestions. The recommendation and one (1) sugges-           the FEC has effectively implemented the FEC’s DRP
 tion were directed to both FEC management and the          and COOPs. Specifically, the inspection will deter-
 Federal Protective Service (FPS), four (4) sugges-         mine if FEC has: (1) established an adequate proj-
 tions were directed primarily to FEC management,           ect plan for the development, implementation, and
 and four (4) suggestions were directed primarily to        testing of the DRP/COOPs; (2) assigned adequate
 the FPS.                                                   resources for completion of a mission critical project;
                                                            and (3) conducts continuous monitoring procedures
 The inspection did not entail a technical review to        for the DRP and COOPs to ensure the plans are re-
 determine whether the contract, policies and proce-        flective of current business processes. Further, the
 dures are adequate, appropriate and meet federal,          overall inspection will determine whether the FEC
 legal and industry standards. Further, the inspection      is in compliance with all applicable guidance (best
 did not include a comprehensive review of the FEC          practices) related to federal government agencies
 building’s physical security, but instead was limited      DRP/COOP.
 to those aspects of building security as they per-
 tained to the goals and objectives of the inspection.
 Future inspections may be conducted to address
 these areas.



                                                                                                                 9
                                                            Office of Inspector General Semiannual Report to Congress




Office of Equal Employment Opportunity                  Survey of the Federal Election Commission’s
Inspection                                              New Employee Orientation Program
Assignment Number: 	 OIG-12-07                          Assignment Number: 	 OIG-12-08
Status: 	 In Progress                                   Status: 	 Released September 2012
The OIG recently began an inspection of the FEC’s       http://www.fec.gov/fecig/documents/Final-SurveyoftheFECs
Office of Equal Opportunity Employment (OEEO).          NewEmployeeOrientationProgram-OIG12-08.pdf
The OEEO administers and implements anti-dis-
crimination, prohibited personnel practice and af-      The New Employee Orientation (NEO) Survey was
firmative action statutes and regulations, as well      an OIG special project concerning the FEC’s NEO
as related policies, procedures and guidance (col-      program. The OIG surveyed current FEC employees
lectively, “EEO laws”) for the FEC. These statutes      who were hired between June 30, 2009 and June
include Title VII of the Civil Rights Act of 1964, as   30, 2012. The purpose of the survey was to evalu-
amended, the Notification and Federal Employment        ate the effectiveness of the FEC's NEO program and
Anti-Discrimination and Retaliation Act of 2002 (No     suggest improvements.
FEAR Act), the Age Discrimination in Employment
Act of 1967 (ADEA), the Americans with Disabilities     The OIG survey was conducted between July 31
Act of 1990 (ADA), the Equal Pay Act of 1963, and       and August 15, 2012. The survey was sent to sixty-
the Rehabilitation Act of 1973. The OEEO’s general      eight (68) employees; forty-three (43) employees
responsibilities are twofold – 1) to advise and edu-    responded. The responses were generally positive,
cate employees and managers of their rights and re-     and the OIG made several suggestions to improve
sponsibilities under the EEO laws, and 2) to process    the NEO program. The NEO Survey report has been
complaints of alleged violations of EEO laws. The       posted on the OIG website.
OEEO is also responsible for recordkeeping and re-
porting, especially complaint statistics, as required
by the EEO laws.

The OIG inspection will evaluate the OEEO’s com-
pliance with specific EEO laws and regulations, to
include the EEO complaint process, among others.
The initial background information and records were
obtained from the OEEO and are being reviewed by
the OIG to properly plan the inspection. The OEEO
inspection is expected to be completed and the re-
port published during the next reporting period.




10
April 1, 2012 - September 30, 2012




                                               OIG hotline Information



 The OIG hotline exists to enable FEC employees,            The OIG frequently receives reports and allegations,
 FEC contractors, and the public to have direct and         which are misdirected complaints that should have
 confidential contact with the OIG. All allegations or      been routed to the Office of Complaints and Legal
 referrals of fraud, waste, abuse, mismanagement,           Administration within the Office of General Counsel
 and misconduct involving FEC employees, contrac-           (OGC), are outside the jurisdiction of the OIG or
 tors, programs, operations, property, or funds re-         the FEC, or are facially unsubstantiated, merit-
 ceived through any means are termed “hotline com-          less or invalid. For example, Section 437g of the
 plaints” per OIG policy. Once a hotline complaint has      Federal Election Campaign Act of 1971, as amend-
 been received, a preliminary inquiry is conducted          ed (FECA), sets forth strict requirements for report-
 to determine whether the hotline complaint will be         ing alleged violations of FECA, and FEC regulations
 closed with no further action taken, referred to man-      direct that such complaints be filed directly by the
 agement or another agency, or an investigation will        complainant and processed through OGC; still, the
 be initiated.                                              OIG regularly receives complaints of alleged FECA
                                                            violations, many of which are not legally compliant.
 The OIG considers many factors when evaluating             Form responses with information about properly fil-
 whether to open an investigation based on a hot-           ing a complaint with OGC are sent to complainants
 line complaint, and acknowledges that every hotline        alleging FECA violations, as the OIG cannot sim-
 complaint received by the OIG cannot be investi-           ply route FECA complaints to OGC. In other cases
 gated and in many cases do not merit investigation.        of misdirected complaints, a response is sent to the
 OIG policy requires that hotline complaints be evalu-      individual referring him or her to the proper office or
 ated on certain criteria, including the merits of an al-   other agency.
 legation, the availability of evidence, and the existing
 priorities, commitments, and resources of the OIG.         In some limited instances where a misdirected com-
 Under this policy, hotline complaints are classified       munication does not concern a FECA violation but
 as either high or low priority complaints. High priority   falls under the purview of another FEC component
 complaints are investigated and low priority com-          or government agency, such as a candidate with a
 plaints are either closed with no action or referred       question about filing a report with the FEC, the in-
 to the appropriate official for possible further review.   quiry may be redirected and sent to the appropriate
 Hotline evaluation decisions are made by the Chief         office or agency directly from the OIG. Reviewing
 Investigator, with concurrence from the Deputy IG.         and, where appropriate, responding to these reports
                                                            and allegations when aggregated can entail a signif-
 During this semiannual reporting period, two (2) new       icant amount of staff time and effort, despite the fact
 hotline complaints were opened; one (1) of the two         that they are not valid hotline complaints.
 (2) was closed and the matter re-opened as an in-
 vestigative file. The OIG has three (3) open hotline       In order to capture and document these hotline con-
 complaints as of the close of this reporting period,       tacts, the OIG has created a category for “hotline in-
 including two (2) that were opened prior to the be-        quiries” that do not meet the criteria for hotline com-
 ginning of this reporting period.                          plaints. For this reporting period, the OIG received
                                                            four hundred and nineteen (419) hotline inquiries,
                                                            the vast majority of these inquiries were related to



                                                                                                                11
                                                         Office of Inspector General Semiannual Report to Congress




one matter, which is outside the jurisdiction of the
OIG. Two (2) of the hotline inquiries were referred or
redirected to other FEC offices, and one (1) was re-
ferred or redirected to another agency. One (1) con-
cerned a follow-up issue to a previous OIG audit. No
further action was taken in four hundred and four-
teen (415) of the hotline inquiries.




12
April 1, 2012 - September 30, 2012




                                         OIG investigations



                                     OIG investigations seek out facts related to allega-
                                     tions of wrongdoing. OIG investigations may address
                                     administrative, civil, and criminal violations of laws
                                     and regulations. The subject of an OIG investigation
                                     can be any agency employee, an FEC contractor,
                                     consultant, or a person or entity involved in alleged
                                     wrongdoing affecting FEC programs and operations.

                                     As discussed in OIG Hotline Information, all hotline
                                     complaints are evaluated to determine if they warrant
                                     an investigation. If an investigation is opened, the
                                     hotline complaint is closed and the matter re-opened
                                     as an investigative file. OIG investigations involve a
                                     detailed examination or inquiry into issues brought
                                     to our attention by various sources, and may include
                                     interviews of relevant witnesses and subjects, docu-
                                     ment reviews, and computer forensic examinations.
                                     At the conclusion of an OIG investigation, the OIG
                                     prepares a report that sets forth the allegations and
                                     an objective description of the facts developed dur-
                                     ing the investigation.

                                     One (1) investigation was opened during this semi-
                                     annual reporting period and remains open.




                                                                                        13
                                                           Office of Inspector General Semiannual Report to Congress




                                                   Additional OIG Activity



Besides conducting audits, inspections, and investi-       The audit universe was compiled by identifying
gations, the OIG performs, and is involved in an ar-       all possible audit segments within the FEC. An
ray of additional projects and activities. As required     audit segment includes any program, process,
by the Inspector General Act of 1978, as amend-            function, or division within the FEC that could
ed, all legislation compiled by the Commission’s           be subject to an audit.
Congressional Affairs office is reviewed by the
Inspector General.                                         Phase 2 – Performing the Risk Assessment
                                                           Once the audit universe was determined, the
The Inspector General also reviews and provides            OIG staff held a meeting to identify the types of
comments, when appropriate, on legislation provid-         risk (“risk factors”) that could potentially impact
ed by the Council of Inspectors General on Integrity       the FEC. Several brainstorming sessions were
and Efficiency (CIGIE) Legislative Committee. In           held to (1) determine what would constitute a
addition, the Inspector General routinely reads all        high, medium or low risk rating for each risk
Commission agenda items. Listed below are exam-            factor; (2) assess the degree of risk for the nine
ples of the OIG’s additional activities:                   risk factors for every auditable segment based
                                                           on the likelihood and impact the respective risk
  •	 Risk Assessment Process                               factor would have on the related auditable seg-
                                                           ment; and (3) determine how to calculate the
     In May 2012, OIG implemented a new formal
                                                           overall risk score for each auditable segment.
     risk assessment process to aid in developing
     the annual OIG work plans. The purpose of the
                                                           When assigning risk ratings, OIG utilized our
     risk assessment is to better align OIG resourc-
                                                           institutional knowledge and understanding of
     es to areas that will provide the most value to
                                                           the audit segments, financial data gathered,
     the FEC. A risk assessment is "a process to
                                                           information obtained from previous audits/in-
     identify, assess, respond to, and report on op-
                                                           spections/investigations, as well as profession-
     portunities and threats that affect the achieve-
                                                           al judgment. Then, all risk factors were weight-
     ment of objectives.” The new risk assessment
                                                           ed equally to calculate the overall risk score for
     process entails a comprehensive review of all
                                                           each audit segment as a high, medium or low
     the risk that could impact the FEC and was
                                                           risk.
     modeled after the COSO (The Committee of
     Sponsoring Organizations of the Treadway              As part of this risk assessment process,
     Commission)1 framework. The risk assessment           OIG also met with the FEC Directors, one
     was performed in three (3) phases, which are          Commissioner, and several key FEC employ-
     described below:                                      ees to discuss their individual concerns (if any)
                                                           that they felt could potentially impact the FEC
     Phase 1 – Identifying the Audit Universe              from achieving its mission, or have any impact
                                                           to goals/objectives of a specific division within
                                                           the FEC. We also asked for ideas or sugges-
1	       COSO is recognized as a thought leader in the
global marketplace on the development of guidance in the   tions for audits/reviews for the upcoming year.
areas of risk and controls which enable good organiza-     Information obtained during these meetings
tional governance and reduction of fraud.



14
April 1, 2012 - September 30, 2012




       was incorporated into the risk assessment as           Standards. This assessment was also utilized
       we deemed appropriate.                                 to comply with the Office of Management and
                                                              Budget’s A-123: Management’s Responsibility
       Phase 3 – Developing the Annual Audit Plan             for Internal Control, as revised.
       OIG utilized the results of the risk assessment     •	 The OIG conducted an OIG Community Survey
       to help prioritize projects to be included in the      on IT shared service providers. The purpose of
       annual work plan. The OIG’s goal is to concen-         this survey was to learn about the OIG commu-
       trate our efforts on the higher risk audit seg-        nity’s use of shared service providers for infor-
       ments where feasible and appropriate. In addi-         mation technology service.
       tion, we also considered suggestions from FEC
       stakeholders obtained during meetings held
       with management. Once the risk assessment
       was completed, the entire OIG staff participat-
       ed in planning meetings to help formulate the
       OIG’s FY 2013 work plan which is included in
       Appendix A.

       Once the planning meeting(s) were completed,
       the IG, in consultation with the DIG, made the
       final determination for the OIG work plan. Each
       OIG staff person is then assigned projects for
       the upcoming year and the IG approves the
       annual employee performance plans which in-
       clude the assigned projects. Work projects are
       prioritized and tracked in a planning worksheet.
       This worksheet is used throughout the year and
       assists OIG senior-level management in moni-
       toring job scheduling and completion.

   •	 The OIG replied to a Congressional inquiry from
      Congressman Issa requesting information on
      how the FEC OIG keeps Congress informed of
      matters, including use of the “seven-day letter.”
      The OIG also replied to Congressman Issa’s
      annual inquiry regarding open and unimple-
      mented IG recommendations.
   •	 The OIG performed the quality control assess-
      ment of FEC OIG policies and procedures in
      accordance with the quality control and assur-
      ance requirements of the Government Auditing


                                                                                                            15
                             Office of Inspector General Semiannual Report to Congress




       Council of the Inspectors General on
     Integrity and Efficiency (cigie) Activity




                         The Inspector General continues to be very involved
                         in CIGIE. She is a member of the Executive Council,
                         which is composed of the Chair, Vice Chair, the past
                         Vice Chair of the PCIE, all Committee Chairs, and
                         one member appointed by the Chair. The Executive
                         Council provides guidance on CIGIE initiated proj-
                         ects, the operating plans for each fiscal year, and
                         the general business of CIGIE. The Council meets
                         monthly to discuss issues that will affect CIGIE.

                         The Inspector General also chairs the Inspector
                         General Candidate Recommendation Panel. This
                         panel is charged with making recommendations of
                         qualified candidates to the White House and heads
                         of various federal agencies to be considered for va-
                         cant Inspector General positions.

                         The Inspector General is Vice Chair of the
                         Professional Development Committee. This commit-
                         tee is charged with ensuring there is strong, relevant
                         training for the Inspector General community. Part of
                         the charge of the committee, is to establish training
                         academies for each of the professional designations
                         in the IG community. This is an on-going project.

                         During this semiannual reporting period, the IG re-
                         viewed the CIGIE Training Institute Training Plan;
                         reviewed CIGIE budget documents for the upcom-
                         ing fiscal year; provided comments to CIGIE regard-
                         ing new IGs at smaller agencies; provided addi-
                         tional comments on the revised Quality Standards
                         for Federal Offices of Inspector General (also
                         known as the Silver Book); and completed CIGIE’s
                         Organizational Health Survey.

                         The IG participated in American University’s
                         “Have Lunch with the IG” event sponsored by the
                         CIGIE Training Academy. The OIG also attended a
                         Congressional hearing on IG vacancies and served
                         as a panel member for the CIGIE annual awards
                         program.



16
April 1, 2012 - September 30, 2012




                                                                             OIG Contacts




 The table below indicates the total amount of contacts received by the Office of Inspector General for the past
 six months – April 1, 2012 through September 30, 2012.

 These contacts were made through various sources such as telephone calls, e-mails, faxes, U.S. mail, and per-
 sonal visits to the OIG.

     Total               OIG         No Action    Forwarded
    Contacts            Action       Necessary    for Action

      3,787                 35        3,725            27




                                                                                                               17
                                                                Office of Inspector General Semiannual Report to Congress




                                                   List of Training, Meetings
                                                             and Conferences
     The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
     Inspector General and/or the OIG staff for the period April 1, 2012 – September 30, 2012:

     MEETINGS:
                       Host / Sponsor                                             Topic / Subject

                                                                  Monthly Meetings

                         Council of Inspectors General on         Executive Council Meetings
                                   Integrity and Efficiency       Professional Development Committee Meetings
                                                                  Small OIG Meeting

               Council of Counsels to the Inspectors General      Monthly Meetings

             Assistant Inspector General for Investigations       Quarterly Meetings

                       Financial Statement Audit Network          Network Meetings

                                                                  The Watchful Eye: Preventing Fraud, Waste, and
                  Association of Government Accountants           Abuse (breakfast meeting)
                                                                  Data Analytics (breakfast meeting)

                                                                  Weekly Director’s Meetings
                                                                  Finance Committee Meetings
                             Federal Election Commission
                                                                  Administrative Liaison Group Meetings
                                                                  Breach Team Meetings

                         FEC / Office of Inspector General        Bi-weekly Staff Meetings




18
 April 1, 2012 - September 30, 2012




TRAINING/CONFERENCES:
                 Host / Sponsor                                          Topic / Subject

  Council of Inspectors General on Integrity and Annual Conference
                                      Efficiency
                                                 IG Authorities Course
                 Government Accountability Office Financial Statement Audit Conference

                    Federal Audit Executive Council Smarter Contract and Acquisition Management Auditing
                                                       GAO Green Book: Emotional Intelligence Training

          Association of Government Accountants Federal Financial Systems Summit
                                                Professional Development Conference
                                                       23rd Annual Conference and Exhibition

         Association of Certified Fraud Examiners Social Media and Implications to the Fraud Examiner
                                                  Community
                                                       Certified Fraud Examiner Review Course

                        Institute of Internal Auditors End of the Chapter Year Event: Come Celebrate Finding
                                                       Fraud Past, Present, and Future
       National Association of Black Accountants National Convention and Expo

                               Management Concepts Essential Communications for the Audit Lifecycle

     Federal TeamMate User Group (FUG) Forum FUG Seminar

         Inspector General Criminal Investigators IG Public Corruption Investigations Training Program
                                       Academy
                National Science Foundation / OIG Criminal Discovery Training

                               USDA Graduate School Residential Professional Development Workshop

                                            AuditNet Adding Value by Auditing Value
                                                     Data Analysis using Excel
                                      Hemsley/Fraser Administrative Professional Conference




                                                                                                               19
                                                   Office of Inspector General Semiannual Report to Congress




      Host / Sponsor                                          Topic / Subject

                                         Business Writing Essentials: Make Your Point Clearly and
                                         Concisely
                                         Strengthening Your People Skills in the Workplace
                                         Communicating with Confidence, Credibility, and
                                         Influence
           National Seminars / Skillpath How to Manage Priorities and Time
                                         Organizational Skills for the Overwhelmed
                                         How to Disarm and Defuse Conflict and Confrontation
                                         Business Etiquette
                                         Combating Apathy in the Workplace
                                         Self Improvement Training

                                         Privacy & PII Security Training
                                         Hatch Act Training
                                         Ethics Training

          Federal Election Commission IT Security Awareness Training
                                      ITD Web Portal Training
                                         VOIP Telephone Training
                                         Sexual Harassment Training
                                         Update on Litigation

     Federal Election Commission / OIG TeamMate Training




20
April 1, 2012 - September 30, 2012




                                                        Reporting Requirements




      Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
      General Act Amendments of 1988 are listed below:

      IG ACT                         DESCRIPTION                                                                PAGE

      Section 4(a)(2)                Review of Legislation                                                        14

      Section 5(a)(1)                Significant Problems, Abuses, and Deficiencies                              None

                                     Recommendations with Respect to Significant Problems, Abuses,
      Section 5(a)(2)                                                                                            None
                                     and Deficiencies
                                     Recommendations Included in Previous Reports on Which Corrective
      Section 5(a)(3)                                                                                             24
                                     Action Has Not Been Completed (Table III)
      Section 5(a)(4)                Matters Referred to Prosecuting Authorities                                 None

      Section 5(a)(5)                Summary of Instances Where Information was Refused                          None

      Section 5(a)(7)                Summary of Significant Reports                                               5

      Section 5(a)(8)                Questioned and Unsupported Costs (Table I)                                   22

      Section 5(a)(9)                Recommendations that Funds be put to Better Use (Table II)                   23

                                     Summary of Audit Reports issued before the start of the Reporting Period
      Section 5(a)(10)                                                                                           N/A
                                     for which no Management Decision has been made
      Section 5(a)(11)               Significant revised Management Decisions                                    N/A

                                     Management Decisions with which the Inspector General is
      Section 5(a)(12)                                                                                           None
                                     in Disagreement




                                                                                                                       21
                                                       Office of Inspector General Semiannual Report to Congress




                                                                                          TABLE I


INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
(DOLLAR VALUE IN THOUSANDS)



                                                     Number       Questioned            Unsupported
                                                                    Costs                  Costs

A. For which no management decision has been made      0                  0                       0
   by commencement of the reporting period


B. Which were issued during the reporting period       0                  0                       0


     Sub-Totals (A&B)                                  0                  0                      0


C. For which a management decision was made during     0                  0                      0
   the reporting period


     (i) Dollar value of disallowed costs              0                  0                      0


     (ii) Dollar value of costs not disallowed         0                  0                      0


D. For which no management decision has been made      0                  0                      0
   by the end of the reporting period

E. Reports for which no management decision was        0                  0                      0
   made within six months of issuance




22
April 1, 2012 - September 30, 2012




                                                                               TABLE II


 INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
 FUNDS BE PUT TO BETTER USE


                                                                      Number     Dollar Value
                                                                               (In Thousands)
   A. For which no management decision has been made by the             0            0
      commencement of the reporting period

   B. Which were issued during the reporting period                     0            0

   C. For which a management decision was made during the re-           0            0
      porting period
       (i) dollar value of recommendations were agreed to by            0            0
           management

          based on proposed management action                           0            0

          based on proposed legislative action                          0            0

       (ii) dollar value of recommendations that were not agreed to     0            0
            by management
   D. For which no management decision has been made by the             0            0
      end of the reporting period
   E. Reports for which no management decision was made within          0            0
      six months of issuance




                                                                                           23
                                                                             Office of Inspector General Semiannual Report to Congress




                                                                                                            TABLE III


SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR
MORE THAN SIX MONTHS
                                                                                       Recommendations
            Report Title                              Report               Issue Date       Number           Closed          Open
                                                      Number
     Audit Follow-up Review of the
     FEC’s Employee Transit Benefit                   OIG-08-03              07/09              51             26              25
     Program

     Audit of the Commission’s                        OIG-09-02              03/10             36              15              21
     Property Management Controls

     Federal Election2 Commission                     OIG-11-01              11/11             20               5              15
     2011 Financial Statement Audit
     2010 Follow-up Audit3 of
     Procurement and Contract                         OIG-10-02              06/11             29               0              29
     Management

     2010 Follow-up Audit4 of                         OIG-10-03              03/11             45               7              38
     Privacy and Data Protection

     Inspection of the Federal
     Election Commission’s Kastle                     OIG-11-02              12/11             15               0              15
     Key Program



	                                            Cumulative Total of Outstanding Recommendations	                                143




2 Follow-up on the 20 open recommendations will be a part of the FEC’s 2012 Financial Statement Audit.
3 The 29 open recommendations include 12 of the 15 recommendations from the 2008 Procurement and Contract Management
    Performance Audit, OIG-08-02. Three recommendations were closed from the 2008 audit.
4 The 45 open recommendations include 16 of the 19 recommendations from the 2006 Inspection Report on Personally Identifiable
    Information, OIG-06-04, and 2007 Performance Audit of Privacy and Data Protection, OIG-07-02. In total, three recommendations were
    closed from the 2006 inspection and 2007 audit.



24
April 1, 2012 - September 30, 2012


                                        APPENDIX A:




                     Federal Election Commission 

                         Office of Inspector General 





                                     Fiscal Year 2013 

                                        Work Plan




                                      Lynne A. McFarland 

                                       Inspector General 





                                                             25
                                                         Office of Inspector General Semiannual Report to Congress




                          TABLE OF CONTENTS

     A Message from the Inspector General-------------------------------------------- 1 


     The Federal Election Commission--------------------------------------------------- 3 


     Office of Inspector General------------------------------------------------------------ 3 


     OIG Strategic Planning----------------------------------------------------------------- 4 


     Annual Planning and Methodology Strategies---------------------------------- 5 


     OIG 2013 Work Plan-------------------------------------------------------------------- 6 


            Audits/Inspections/Reviews-------------------------------------------------- 6 


            Investigative Program--------------------------------------------------------- 9 


            Special Projects------------------------------------------------------------------ 10 


     Attachment

            FEC / OIG Strategic Plan – Fiscal Years 2010 - 2015




26
April 1, 2012 - September 30, 2012




                        FEDERAL ELECTION COMMISSION
                        WASHINGTON, D.C. 20463
                        Office of Inspector General


                                       A Message from the Inspector General


            I am pleased to present to the Commission the Office of Inspector General’s (OIG)
    fiscal year (FY) 2013 Annual Work Plan. This work plan includes a description of audit,
    inspections, investigative and special projects planned for FY 2013. The plan also sets
    forth the OIG’s formal strategy for identifying priority issues and managing its workload
    and resources for FY 2013. Successful execution of this plan will enable the OIG to
    provide the highest quality work products to our stakeholders and to assist the FEC in
    meeting its strategic mission, goals and objectives.

           The OIG substantially completed the work planned for FY 2012 in the audit and
    investigative programs, as well as special projects; some of the assignments are in
    process spanning fiscal years 2012 and 2013. Among the audits completed in FY 2012
    were the Audit of the FEC’s Fiscal Year 2011 Financial Statements, and the Quality
    Assessment Audit of the FEC’s Audit Division. The OIG also devoted resources this past
    FY to audit follow-up with the goal of closing outstanding audit recommendations. I am
    pleased to report the FEC has been able to implement some of the outstanding OIG
    recommendations, but a considerable amount of work remains to ensure weaknesses
    cited by the OIG are addressed.

            In addition to the accomplishments in the audit program, the investigative
    program accomplished much of the work planned for 2012, to include responding to
    hotline complaints, OIG briefings to new employees, oversight of the OIG’s hotline
    service, among other projects. My office also completed our first voluntary investigative
    peer review of another federal OIG. In addition to the investigative program, the OIG
    staff was actively involved in several professional working groups during the FY, to
    include the Council of the Inspectors General on Integrity and Efficiency Professional
    Development Committee, the Inspector General (IG) Candidate Recommendations Panel
    Committee, the IG Council of Counsels, among others. At the start of FY 2013, the OIG
    is fully staffed with six professional staff members, and therefore, I anticipate the OIG
    will successfully complete the FY 2013 work plan that follows.

           The U.S. Federal Election Commission’s (FEC) mission statement is “to prevent
    corruption in the Federal campaign process by administering, enforcing and formulating
    policy with respect to Federal campaign finance statutes.”1 The OIG is committed to
    ensuring the integrity of FEC programs and operations. The development and continual
    updating of the OIG’s work plan is a critical aspect of accomplishing the OIG’s objectives
    to promote economy and efficiency in FEC programs and to detect and prevent fraud,
    waste and abuse. Effective work planning ensures that audit and investigative resources


    1
     Federal Election Commission, Fiscal Year 2013 Congressional Budget Justification (Washington, DC, February 13,
    2012), 3.
                                                                                                                      1



                                                                                                                          27
                                                          Office of Inspector General Semiannual Report to Congress




     are used effectively and efficiently. I look forward to a successful year of providing the
     highest quality of audit and investigative support and service to our stakeholders.




     Lynne A. McFarland
     Inspector General
     Federal Election Commission

     October 3, 2012




                                                                                                        2




28
April 1, 2012 - September 30, 2012




    The Federal Election Commission
           In 1975, Congress created the Federal Election Commission (FEC) to administer
    and enforce the Federal Election Campaign Act (FECA). The duties of the FEC, an
    independent regulatory agency, are to disclose campaign finance information; enforce the
    provisions of the law; and oversee the public funding of Presidential elections.

            The Commission is made up of six members, who are appointed by the President
    and confirmed by the Senate. Each member serves a six-year term, and two seats are
    subject to appointment every two years. By law, no more than three Commissioners can
    be members of the same political party, and at least four votes are required for any
    official Commission action. The Chairmanship of the Commission rotates among the
    members each year, with no member serving as Chairman more than once during his or
    her term. Currently the FEC has a full complement of Commissioners – Chair Caroline
    C. Hunter; Vice-Chair Ellen L. Weintraub; Cynthia L. Bauerly; Matthew S. Petersen;
    Steven T. Walther; and Donald F. McGahn, II.




    Office of Inspector General
           The Inspector General Act of 1978 (P.L. 100-504), as amended, states that the
    Inspector General is responsible for: 1) conducting and supervising audits and
    investigations relating to the Federal Election Commission’s programs and operations; 2)
    detecting and preventing fraud, waste, and abuse of agency programs and operations
    while providing leadership and coordination; 3) recommending policies designed to
    promote economy, efficiency, and effectiveness of the establishment; and 4) keeping the
    Commission and Congress fully and currently informed about problems and deficiencies
    in FEC agency programs and operations, and the need for corrective action. The OIG
    budget request for FY 2013 was $ 1,144,237, an amount necessary to cover salaries and
    related expenses for six staff members, to include audit contracts and training. Exhibit 1
    on the following page contains the OIG’s organizational chart.




                                                                                             3



                                                                                                 29
                                                             Office of Inspector General Semiannual Report to Congress




     Exhibit 1: FEC - OIG Organizational Chart
                                    Lynne A. McFarland

                                      Inspector General


                  Dorothy Maddox-Holland

                   Special Assistant to the
                     Inspector General



                                              Jon Hatfield

                                        Deputy Inspector
                                           General


       Shellie Purnell-Brown                   Mia Forgy             J. Cameron Thurber

          Senior Auditor                  Senior Auditor          Counsel to the Inspector
                                                                 General/Chief Investigator



     OIG Strategic Planning

     Strategic Plan
            To enhance the effectiveness of the OIG and to ensure effective audit and
     investigative coverage of the Commission’s programs and operations, the OIG has a
     strategic plan that covers the period 2010 through 2015. Three major categories of OIG-
     wide goals and objectives are included in the strategic plan, which are as follows:

        •	 OIG Products: To provide products and services that promote positive change in
           FEC policies, programs, and operations.

        •	 OIG Processes: To develop and implement processes, policies, and procedures to
           ensure the most effective and appropriate use of OIG resources in support of our
           people and products.

        •	 OIG Staff: To maintain a skilled and motivated work force in an environment
           that fosters accountability, communications, teamwork, and personal and
           professional growth.




                                                                                                           4



30
April 1, 2012 - September 30, 2012




           In addition, strategies and performance measures for each objective are included
    in the strategic plan. For example, an OIG performance measure for audits includes
    using feedback from stakeholder surveys to continually improve the OIG’s audit process.
    At the conclusion of each audit/inspection/review, the OIG distributes a stakeholder
    survey to the program officials to solicit their feedback on the usefulness of the completed
    OIG assignment and their overall satisfaction with the process.

           The OIG strategic plan will continue to evolve and will be reviewed and updated
    as necessary to ensure maximum effectiveness in meeting the changing needs of the
    FEC, consistent with the OIG’s statutory responsibilities. A detailed illustrative version
    of the OIG’s strategic plan can be found as an attachment of this annual work plan.



    Annual Planning and Methodology Strategies

          The planning methodology adopted by the OIG is based on a formal risk
    assessment process. The purpose of the risk assessment process is to better align OIG
    resources to areas that will provide the most value to the FEC. A risk assessment is a
    process to identify, assess, respond to, and report on opportunities and threats that affect
    the achievement of objectives. The OIG also solicits feedback and ideas from
    stakeholders throughout the year. The annual work plan will, of course, require periodic
    updates to reflect changes, such as new priorities, as well as any changes in OIG
    resources.

           In the summer of 2012, the OIG conducted our fifth annual planning process that
    involved a series of OIG planning meetings to discuss the upcoming fiscal year and OIG
    work assignments. In addition to planning based on risk, the OIG planning process is
    also designed to yield work assignments that will identify opportunities for economy,
    efficiency and effectiveness in FEC programs and operations; and detect and prevent
    fraud, waste, abuse and mismanagement. The priority for conducting work assignments
    is based on (1) mandatory legislative requirements; (2) emphasis by the President,
    Congress, and the Commission; (3) a program’s susceptibility to fraud, manipulation, or
    other irregularities; (4) dollar magnitude or resources involved in the proposed area; (5)
    management needs identified through consultation with primary organization heads; (6)
    newness, changed conditions, or sensitivity of an organization; (7) the extent of
    outstanding issues resulting from prior audit coverage or review by the OIG or other
    oversight body; and (8) the adequacy of internal control systems in place for the program
    or other factors.




                                                                                               5




                                                                                                   31
                                                        Office of Inspector General Semiannual Report to Congress




           Based on the results of the OIG’s planning process, the OIG’s annual work plan is
     divided into three primary categories:

        (1) Audits/Inspections/Reviews;
        (2) Investigative Program; and
        (3) Special Projects.


     OIG 2013 Work Plan
     AUDITS/INSPECTIONS/REVIEWS

           The term “audit” is used to describe work performed by auditors in examining
     financial statements, as well as work performed in reviewing compliance with applicable
     laws and regulations, the economy and efficiency of operations, and the effectiveness in
     achieving program results. These audits are prepared in accordance with generally
     accepted government auditing standards and vary in scope and complexity. Inspections
     and reviews are conducted in accordance with quality standards issued by the federal
     Inspector General community.

     For fiscal year 2013, the following assignments are planned:

        1. Audit of the Federal Election Commission’s 2012 and 2013 Financial 

           Statements. 


           In accordance with the Accountability of Tax Dollars Act of 2002, the FEC is
           required to prepare annual financial statements in accordance with Office of
           Management and Budget (OMB) Circular No. A-136, Financial Reporting
           Requirements. The Chief Financial Officers Act of 1990, as amended, requires the
           FEC Inspector General, or an independent external auditor selected by the IG, to
           audit the agency financial statements.

           We will oversee the audit conducted by the OIG’s independent public accounting
           firm Leon Snead & Company. The OIG is responsible for 1) reviewing the
           auditor’s approach and planning of the audit; 2) evaluating the qualifications and
           independence of the auditors; 3) monitoring the work of the auditors; 4) examining
           audit documents and reports to ensure compliance with government auditing
           standards, and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial
           Statements, as revised; and 5) other procedures the OIG deems necessary to
           oversee the contract and audit.

           Planned period of audit: May 2012 – November 2012; 

                                    May 2013 – November 2013. 





                                                                                                      6




32
April 1, 2012 - September 30, 2012




        2. Audit of the Federal Election Commission’s Human Resources Office.

            The OIG will conduct a performance audit of the FEC’s Human Resources (HR)
            Office during the first part of fiscal year (FY) 2013. The HR Office is a critical
            component of the agency and is responsible for several important functions, to
            include recruitment and retention of qualified staff; employee-employer relations;
            administration of employee benefits; maintenance and processing of personnel
            records; training; among other responsibilities. The OIG audit will focus on two
            main areas, customer service and the efficient and effective use of automated
            processes by the agency for human resource functions. As part of the customer
            service assessment, the OIG will conduct an agency-wide survey of FEC staff to seek
            feedback on their satisfaction level of service provided by the FEC HR Office.

            Planned period of audit: July – December 2012.

        3. Audit of the Federal Election Commission’s Budget and Financial
           Management Process

            The OIG will conduct a performance audit of the FEC’s budget and financial
            management process. The audit will have three primary objectives: (1) to
            determine whether the Office of the Chief Financial Officer provides FEC
            management with timely, accurate and real-time financial information to enable
            managers to effectively monitor and manage FEC programs; (2) to assess the
            benefits and costs of the FEC’s financial line of business with the General Services
            Administration; and (3) assess year-end spending.

            Planned period of audit: January – April 2013.

        4. On-Going Audit Follow-up.

            An important responsibility of the OIG is to follow-up on previously issued audit
            reports with outstanding audit recommendations. At the beginning of FY 2013,
            there were 143 outstanding audit recommendations representing five audits and
            one inspection. On-going audit follow-up during FY 2013 will consist of the
            following responsibilities: (1) review implemented audit recommendations to
            ensure the audit finding has been resolved; (2) review and comment on
            management’s corrective action plans that detail plans for resolving outstanding
            audit recommendations; and (3) conduct regular meetings throughout the FY with
            management to discuss progress to implement audit recommendations.

            Planned period of audit followup: On-going throughout FY 2013.




                                                                                               7



                                                                                                   33
                                                    Office of Inspector General Semiannual Report to Congress




     5. Audit Peer Review.

       The OIG will complete an audit peer review of another federal OIG during the
       fiscal year as part of the Council of Inspectors General on Integrity and
       Efficiency’s audit peer review program. Government auditing standards require
       audit organizations to have an external review of their quality control system at
       least every three years.

       Planned period of audit peer review: Fiscal year 2013.

     6. Limited Scope Inspections.

       The OIG is planning to conduct two to four limited scope, or short-term,
       inspections of FEC programs during FY 2013. The goal of the short-term
       inspections will be to focus OIG resources on high-risk areas and provide rapid,
       up-to-date information to FEC management and the Commission on the efficiency
       and effectiveness of FEC programs.
          o	 An inspection related to the Office of Equal Employment Opportunity was
             started in late FY 2012 and is expected to be completed by December 2012.
          o	 A second inspection is expected to begin in October 2012 on the
             implementation of the agency’s disaster recovery plan and continuity of
             operations plans. The inspection is expected to be completed in December
             2012.
          o	 An inspection on the FEC’s compliance with the Federal Managers’
             Financial Integrity Act (FMFIA) is planned to begin in the early part of
             calendar year 2013 and is expected to be completed by April 2013.
          o	 Additional inspections on the FEC’s civil penalties program, FEC’s
             information technology planning process, leasehold improvements and the
             agency printing program may be performed, time permitting.

     7. Additional Work Assignments.

       Additional work assignments may be undertaken during FY 2013 based on 

       available OIG resources, benefit to the agency, and other relevant factors. 

       Priorities may be adjusted to reflect emerging issues during the FY.





                                                                                                 8




34
April 1, 2012 - September 30, 2012




    INVESTIGATIVE PROGRAM

           The OIG’s investigative program is intended to add value to the agency’s programs
    and operations by identifying and investigating allegations of fraud, waste, abuse and
    misconduct leading to criminal, civil, and administrative penalties and recoveries.
    Investigations typically originate as hotline complaints and may result in formal
    investigations if the OIG believes an investigation is warranted. The OIG’s investigative
    program also provides for initiatives designed to monitor specific high-risk areas within
    FEC programs and operations in order to proactively identify vulnerabilities in order to
    prevent fraud, waste and abuse.

    For fiscal year 2013, the following investigative assignments are planned:

        1. Manage Hotline Complaints and Investigation Caseload.

            The OIG will respond to hotline complaints during the FY and report in a timely
            manner to the appropriate officials on the resolution of hotline complaints and
            investigations.

        2. Proactive Investigative Initiatives.

            The OIG will initiate proactive reviews involving high-dollar and high-risk
            programs and operations of the agency. In addition, the OIG has identified several
            agency data systems, such as financial related systems, and will continue to
            pursue direct read-access for OIG personnel as part of the OIG’s proactive
            initiatives to prevent fraud, waste, abuse and misconduct.

        3. Investigative Peer Review.

            The FEC OIG participates in the Council of Inspectors General on Integrity and
            Efficiency voluntary peer review program for smaller OIGs, and the FEC OIG is
            expected to be peer reviewed during FY 2013. The objective of the peer review is
            to determine whether internal control systems are in place and operating
            effectively to provide reasonable assurance that professional investigative
            standards are being followed. Specifically, the external peer review team will
            analyze FEC OIG existing policies and procedures, conduct interviews with
            selected OIG management officials and the investigator, and sample closed
            investigative files and other administrative records, as warranted.

            Planned period of investigative peer review: Fiscal year 2013.




                                                                                               9



                                                                                                   35
                                                          Office of Inspector General Semiannual Report to Congress




        4. Outreach.

           In FY 2011, the OIG conducted a series of OIG briefings with FEC division
           management and staff. The briefings were intended to educate FEC staff about
           the mission and authority of the OIG, and how to report fraud, waste, abuse or
           mismanagement to the OIG. In FY 2012, the OIG worked with the Office of the
           Chief Financial Officer to identify the contractor personnel for the agency. The
           OIG plans to provide fraud briefings to the contractor personnel in FY 2013.
           Discussion and education on fraud will help contractors to identify and report
           suspected fraud and help reduce the number of fraud cases. The briefings will also
           discuss the OIG’s hotline service and how contract personnel can report fraud,
           waste and abuse to the OIG.

           In addition, the OIG will continue the new employee orientation program to meet
           with all new employees to discuss the purpose and mission of the OIG. Lastly, the
           OIG will review and revise, as necessary, the OIG’s FECNet (intranet) site, public
           Web site, OIG brochure, fraud poster, and other outreach initiatives.

     SPECIAL PROJECTS

             In addition to the OIG’s audit and investigative responsibilities, the OIG will be
     responsible for numerous additional projects and activities during FY 2013. For
     example, as required by the Inspector General Act of 1978, as amended, all legislation
     compiled by the Commission’s Congressional Affairs Office is reviewed by the Inspector
     General. The Inspector General and staff also participate in several federal Inspectors
     General community working groups on topics related to law, audits, and investigations.
     All of these activities contribute to the success and mission of the OIG. Additional
     special projects will arise throughout the FY and the OIG will prioritize our workload to
     respond to the additional requirements.

     For fiscal year 2013, the following are examples of the special projects and activities
     planned by the OIG:

        1. Participate and Attend Professional Working Group and Other Meetings.


           The Inspector General or OIG staff will regularly attend the following Council of
           the Inspectors General on Integrity and Efficiency (CIGIE) professional working
           group meetings: monthly CIGIE meetings; Executive Council of CIGIE; CIGIE
           Professional Development Committee; IG Candidate Recommendations Panel
           Committee; IG Council of Counsels; Assistant Inspector General for
           Investigations; Federal Audit Executive Council; and Financial Statement Audit
           Network Group.



                                                                                                       10



36
April 1, 2012 - September 30, 2012




            In addition to CIGIE professional working group meetings, the Inspector General
            or staff will regularly attend FEC director level meetings, and management and
            FEC town-hall meetings during the FY.

        2. Semiannual and Quarterly Reporting.

            In accordance with the Inspector General Act of 1978, as amended, the OIG will
            prepare and transmit to the Congress semiannual reports on the activities of the
            OIG. Semiannual reports summarize OIG activities during the immediately
            preceding six-month periods ending March 31st and September 30th of each year.
            OIG semiannual reports are also provided to the Commission. The OIG will also
            report on a quarterly basis to the Commission on the activities of the office.

        3. Professional Development and Training.

            The goal of the OIG’s training program is to provide cost effective training to
            increase professional knowledge and proficiency, and ensure staff meet continuing
            professional educational requirements. As a result, the OIG staff will attend
            professional training during the fiscal year to maintain and improve their
            knowledge, skills and abilities.

        4. Update Audit and Investigative Manuals.

            The OIG will update the office’s audit and investigative manuals in FY 2013. The
            updated audit manual will incorporate recent changes to the Government Auditing
            Standards, and the investigative manual update will reflect changes and additions
            to the OIG’s investigative program.




                                                                                               11



                                                                                                    37
                                                                                                              Office of Inspector General Semiannual Report to Congress




                                                          FEC / OIG Strategic Plan - Fiscal Years 2010 - 2015
     OIG Products: To provide products                          OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
     and services that promote positive                         processes, policies, and procedures to ensure                    work force in an environment that fosters
     change in FEC policies, programs, and                      the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
     operations.                                                resources in support of our people and                           personal and professional growth.
                                                                products.

     Objective A: Deliver timely, high-quality                                                                                   Objective A: Attract and retain well-qualified,
     products and services that promote                                                                                          diverse and motivated employees.
     positive change.                                             Objective A: Maintain a dynamic strategic
                                                                  planning process.                                              Strategy:
                                                                                                                                 - develop and implement a comprehensive recruiting program
     Strategy:                                                                                                                   that attracts a broad population with the knowledge, skills,
     - establish common OIG standards for communicating           Strategy:
                                                                                                                                 abilities, and expertise necessary to make meaningful
     results;                                                     - periodically review and update the strategic plan to
                                                                                                                                 contributions to the OIG;
     - conduct quality assurance programs;                        address changing OIG and FEC priorities; and,
                                                                                                                                 - assess employee satisfaction and develop strategies to
     - solicit appropriate internal and external review and       - identify factors that influence organizational change
                                                                                                                                 address employee concerns;
     comment;                                                     and develop short and long term plans to address them.
                                                                                                                                 - identify reasons for staff departures and develop plans to
     - comply with applicable statutory guidelines and                                                                           foster greater staff retention; and,
     standards;                                                                                                                  - adhere to EEO principles and strive to maintain a diverse work
     - set realistic and appropriate milestones.                                                                                 force.

     Objective B: Address priority issues
     and concerns of the Commission,
                                                                  Objective B: Plan and conduct cost-
     Management, and Congress.
                                                                  effective work that address critical issues                    Objective B: Provide training and
     Strategy:     Perform work that supports;                    and results in positive change.                                developmental opportunities to employees.
     - Federal Election Commission and Congressional
     priorities;                                                  Strategy:                                                      Strategy:
     - Strategic Management Initiative efforts;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
                                                                  activities;                                                    office needs as well;
     Focus OIG attention in the following areas of                - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
     emphasis:                                                    goals and priorities;                                          training are adhered to; and,
     - managing change;                                           - ensure that priorities of IG are effectively                 - maintain a reporting system to ensure that educational
     - resource allocation in relation to policy objectives;      communicated; and,                                             requirements are met.
     - delivery of client service;                                - identify specific targets for OIG review that are the most
     - causes of fraud and inefficiency; and,                     cost-effective
     - automation and communication.



                                                                  Objective C: Identify customer needs and
                                                                  provide products and services to meet
     Objective C: Follow-up and evaluate                          them.                                                          Objective C: Assess, recognize, and reward,
     results of OIG products and services to                                                                                     when possible, performance that contributes to
     assess their effectiveness in promoting                      Strategy:                                                      achieving the OIG mission.
     positive change.                                             - establish new customer feed back mechanisms;

                                                                  - consider and evaluate customers feedback when

                                                                                                                                 Strategy:
                                                                  planning and developing products and services;

     Strategy:                                                    - respond to Congressional inquires and request for

                                                                                                                                 - develop and articulate expectations for each employee's
     - Identify, as appropriate, lessons learned to improve                                                                      performance, including contributions in meeting the mission &
                                                                  briefing and testimony;

     timeliness and quality; and,                                                                                                goals of the OIG; and,
                                                                  - promote open exchange of ideas and information

     - conduct follow-up reviews to determine if intended                                                                        - ensure that rewards, when possible, are given in recognition of
                                                                  through outreach and through use of e-mail; and,

     results have been achieved.                                                                                                 exceptional employee performance.
                                                                  - receive, evaluate, and respond, as appropriate, to

                                                                  information received through the OIG hotline and other

                                                                  sources.



     Objective D: Satisfy customers,
     consistent with the independent nature                       Objective D: Implement efficient, effective,                   Objective D: Create and maintain a working
     of the OIG.                                                  and consistent resolution and follow-up                        environment that promotes teamwork and
                                                                  procedures.                                                    effective communication.
     Strategy:
     - establish professional communication and                   Strategy:                                                      Strategy:
     interaction with customers to promote the open               - ensure that IG follow-up procedures are followed and
                                                                                                                                 - ensure that communication between employees is open;
     exchange of ideas;                                           that management is aware of their role in the process;
                                                                                                                                 - provide employees with the tools and incentives they need to
     - incorporate customer feedback, as appropriate; and,        - establish common OIG standards for terminology, date
                                                                                                                                 adequately perform their duties.
     - be open to customer-generated solutions and                maintenance and communications.
     options.

                                                                  Objective E: Establish a positive and
                                                                  productive working environment.

                                                                  Strategy:
                                                                  - reengineer or streamline OIG procedures to achieve the

                                                                  most effective use of resources; and,

                                                                  - ensure that necessary technologies, evolving and

                                                                  otherwise, are made available to staff as needed.




     Performance Measures: Determine the
     timeliness and quality of products and                       Performance Measures: An annual audit                          Performance Measures: All employees meet
     services; their effectiveness in                             plan is issued; strategic plan is periodically                 the training requirements; all employees have
     promoting positive change; and, reach                        reviewed; and, necessary technology is                         performance standards; and all employees
     agreement with management on at least                        provided to staff to enable them to most                       meet the basic requirements for the position in
     90% of recommendations within six                            efficiently perform their duties.                              which they were hired to perform.
     months of the report issue date.


                                                                                                                                                                                      12

38
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
